                                           NATIONAL SCIENCE FOUNDATION
                                           OFFICE OF INSPECTOR GENERAL
                                             OFFICE OF INVESTIGATIONS

                                      CLOSEOUT MEMORANDUM

 Case Number: A10030024                                                          Page 1 of 1


          NSF referred an allegation to us to determine whether an employee 1 had misused
          NSF's time and attendance system by having someone sign in and out for her. We
          found no evidence of that, but did uncover possible abuses of the NSF email system
          (excessive personal use), a possible misuse of h er position (allowing someone to use
          her name and title as a reference when person never worked for her), and other
          administrative issues. We referred the matter back to NSF to take whatever action,
          if any, it deemed appropriate. NSF conducted its own review of the matter, with
          the result being the employee's resignation. This case is closed with no further
          action taken.




               l   [redacted]



NSF OJG Form 2 (I 1102)
